March 3, 2009

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Air Networks – Federal Express Transportation
         Agreement – Southwest Area (Report Number NL-AR-09-002)

This report presents the results of our self-initiated audit of the Federal Express (FedEx)
transportation agreement. The objectives of our audit were to determine whether
selected transportation operations were effective and economical (Project Number
08XG027NL000).1 See Appendix A for additional information about this audit.

Conclusion

It was more effective and economical for the Southwest Area to use ground
transportation and domestic air carriers, and to sort mail at U.S. Postal Service plants in
some cases, than to use FedEx to perform these functions. Because the Southwest
Area used FedEx, the Postal Service incurred about $9 million in unnecessary costs. If
the Southwest Area implements our recommended changes, we estimate the Postal
Service could save $44.3 million over a 10-year period.

Transporting Surface Mail on FedEx Day Turn2

We concluded that using ground transportation was more advantageous than using
FedEx in some cases. Transporting surface mail by FedEx cost the Postal Service
about $8.2 million more than necessary. This occurred because plant employees did
not properly segregate surface mail classes (Periodicals, Standard Mail, and Package
Services) from First-Class Mail® and Priority Mail®. By using ground transportation, the
Postal Service could lower overall FedEx lift requirements and save about $34.7 million
over 10 years. See Appendix B for our detailed analysis of this topic.




1
  We changed the wording of the audit objectives slightly from the original announcement letter. The initial objectives
were to determine whether operations were effective and to identify opportunities to save money.
2
  FedEx Day Turn operations are principally for transporting First-Class Mail and Priority Mail during daytime hours.
Air Networks – Federal Express Transportation Agreement                        NL-AR-09-002
 – Southwest Area

We recommend the Vice President, Southwest Area Operations:

1. Use surface transportation to the extent possible for mail that does not require air
   transportation to meet Postal Service on-time standards.

Management’s Comments

Management generally agreed with our finding and recommendation. Management
responded that in many cases, using ground transportation can be more cost-effective
than FedEx, when ground transportation is service-responsive. However, they stated
that other impacts are associated with separating these mail types, including the
additional costs of sweeping and resetting machines and lower container density.
Management also stated that they sometimes include surface mail on FedEx to avoid
mismatched FedEx contract requirements, claiming this is more cost-effective. They
provided other examples of situations where it is more advantageous to use FedEx than
surface transportation.

Management also expressed concerns over the amounts of our questioned costs and
projected savings. Management disputed the use of the extrapolated volume data from
the Postal Service’s Transportation Cost System (TRACS), stating that the system is
designed to give estimates at the national level and not at the facility or area level.
Management further stated that our estimates lacked the offsetting costs of ground
transportation and associated labor costs. However, management did state they would
follow Postal Service Headquarters policy of providing quality service at the lowest cost
to the organization and would issue instructions to plant managers reinforcing the
policy. Management’s comments, in their entirety, are included in Appendix E.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the finding and recommendation, and the corrective actions
should resolve the issues identified in the report. The OIG disagrees with
management’s reasons for transporting some surface mail on FedEx and their rationale
for the associated cost impacts. Postal Service policy is to use surface transportation
for moving Standard, Periodical, and Package Services mail types. Surface
transportation is the most economical method for moving most of these mail types while
meeting established standards. We believe that not using this method should be the
exception, not the rule. In addition, using the more costly FedEx network to
unnecessarily advance mail to avoid on-hand volume reporting is not economically
sound and passes local costs on to a national transportation network.

Further, the costs of using established procedures to process and move the mail on
prescribed methods of transportation are normal costs of doing business. The normal
costs of doing business should not be considered as offsetting costs when determining
questioned and projected savings for moving mail on its proper transportation mode.
Our monetary impacts are based on the use of existing surface transportation with



                                                  2
Air Networks – Federal Express Transportation Agreement                      NL-AR-09-002
 – Southwest Area

available space to accommodate the additional surface mail volume if that volume is
removed from FedEx.

Regarding management’s comments on the use of TRACS data to apply dollar impacts
to the findings and projections, we believe our methodology is sound. Management
stated that the system was designed to give estimates at the national level. However,
we thoroughly analyzed the test data and associated the data with specific facilities in
the Southwest Area. We used the Southwest Area’s percentage of the total surface
mail types across all areas and applied the applicable costs to the Southwest Area.
Although we did not replicate the testing process, our observations verified the
existence of surface mail types on FedEx and identified surface mail volumes in
containers destined for FedEx at all the locations we visited. In addition, before we
issued our draft report, the Postal Service Headquarters Statistical Programs Group
reviewed our analysis and found no issues with our methodology and use of TRACS
sample data for calculating the cost impacts at the area level. Therefore, we believe the
use of the TRACS data gives a fair approximation of the dollar impacts on the
Southwest Area.

FedEx Versus Passenger Airlines

When the Postal Service requires air transportation, we concluded it is more
advantageous to use passenger carriers than FedEx in some cases. From January 1
through December 31, 2007, the Postal Service incurred $218,000 in unnecessary
costs to move xxxxxxx cubic feet of First-Class Mail on FedEx from origins in the
Southwest Area. The excess costs were incurred because local officials did not
prioritize mail by assigning it to less costly available commercial air transport. The
Southwest Area could save about $4.2 million over a 10-year period by using the
maximum capacity of passenger airlines under Postal Service domestic air
transportation contracts. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Southwest Area Operations:

2. Transport mail to the maximum extent possible using the service-responsive
   capacity of passenger airlines under contract with the Postal Service.

Management’s Comments

Management generally agreed with our finding and recommendation. They stated that
in many cases, using domestic air carriers has the potential to be more cost-effective
and economical than using FedEx. Management stated they have made considerable
progress toward maximizing the use of commercial carriers; they continue to regularly
review Air Mail Condition Reports from headquarters and seldom dispatch any known
surface or commercial air volume on FedEx.

Management also stated that while the per-pound rate of commercial air is less than
FedEx, the on-time performance of commercial air carriers on contract with the Postal



                                                  3
Air Networks – Federal Express Transportation Agreement                                               NL-AR-09-002
 – Southwest Area

Service has not risen above 75 percent, as measured by the Department of
Transportation. Management stated that the 2006 commercial air agreement placed
considerable limitations on the transportation network. They outlined several reasons
for their decisions concerning which mode of transportation to use, which could impact
the data used to arrive at the OIG’s conclusions. Management explained the Southwest
Area’s efforts to properly use commercial air routings and challenges with the Postal
Service data systems, contingency measures placed on them by Postal Service
Headquarters Logistics to fill FedEx matrix commitments, inconsistent or nonresponsive
service offered by the 2006 commercial air agreement suppliers, and other issues.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the finding and
recommendation and recognizes management’s ongoing efforts to reduce the volumes
of First-Class Mail on FedEx. The corrective actions management has already taken
and plans to continue will help resolve the issues identified and realize the savings
projected in the report.

We agree that management must consider service, timeframes, and capacities when
assigning mail to commercial air transportation. The Postal Service established a
system for assigning mail to ensure that it moves on intended routes, based on service
and cost. Issues can occur in the assignment process; carriers are sometimes not able
to carry mail; and carriers are sometimes late in arriving at destinations. However, the
Postal Service has procedures in place to address and correct the process when these
issues occur. These processes should ensure on-time performance and minimize the
need to use FedEx when commercial air capacity is available.

Mixed Versus Bypass Air Containers

Finally, in some cases, it was more advantageous for the Postal Service to sort mail
than FedEx. During the period January 1 through December 31, 2007, the Southwest
Area unnecessarily spent about $548,000 to have FedEx sort mail. The Postal Service
incurred this expense because the Southwest Area processing plants did not separate
mail and distribute it in bypass containers.3 If the Southwest Area properly sorts and
distributes this mail, the Postal Service could avoid about $5.4 million in unnecessary
costs over 10 years. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Southwest Area Operations:

3. Sort mail into bypass containers as appropriate.




3
 Bypass containers contain mail for specific destinations that do not need to be sorted by FedEx in Memphis, TN, for
onward transportation.




                                                         4
Air Networks – Federal Express Transportation Agreement                       NL-AR-09-002
 – Southwest Area

Management’s Comments

Management generally agreed with our finding and recommendation. Management
stated the area conducts weekly teleconferences and reviews operating plan
compliance, which partially drives the utilization of bypass containers. They stated that
adherence to operating plans and discussion of the results maximizes the number of
bypass containers generated. Management also gave a number of reasons for not
sorting mail in bypass containers, including a minimum planning weight requirement,
excessive volumes, and the exact times that mail must be tendered. However,
management stated that the Area Manager, Distribution Networks, will ensure that
plants make the best use of bypass container allocation through established
teleconferences and through other regular communication.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the finding and
recommendation, and the corrective actions should address the issues identified in the
report. The planned FedEx matrix sets goals for bypass containers tendered to FedEx
in order to avoid added sorting costs. To accommodate the plans, local officials should
have established processes in place to meet plans as part of their normal method of
doing business. In addition, our review determined that the established process was
not always followed and resulted in unnecessary sorting. We observed many instances
where mail did not arrive at the terminal handling services sites at scheduled times,
resulting in conversions from bypass to mixed containers. In addition, we observed mail
destined for locations where containers were in place for bypass mail, but the mail
arrived in mixed containers. Further, our analysis of mailpieces took into consideration
the conversion criteria and excessive volumes.

Additional Management Comments

Management did not agree that the questioned costs and funds put to better use
included in our report were valid. Management commented that, as a whole, mail
volume is falling and the FedEx network is continually being shrunk, yet the projected
savings assumes that volumes remain constant. Therefore, management did not agree
with the 10-year future savings of $44.3 million projected in the report. Management
estimated the 10-year savings at $10 million to $14 million. Management stated that
they based their estimates on typical methodologies used to determine the return on
investments from process changes, and the ongoing decrease in volumes being
experienced by the Postal Service. Management did not provide supporting
documentation for the amounts it disagreed with or for its alternate estimates.

Evaluation of Management’s Additional Comments

We acknowledge management’s comments regarding declining mail volume. Our
estimates considered volumes, including any declines, during the period audited
(October 2005 through December 2007). These estimates are based on the best



                                                  5
Air Networks – Federal Express Transportation Agreement                        NL-AR-09-002
 – Southwest Area

available information and assume continued average volume levels for the period
audited. We will continue working with management to reach agreement on projected
monetary impacts and close the significant recommendations.

We will report a total of $53,304,996 in monetary impact for the three findings in our
Semiannual Report to Congress, including $8,995,521 in questioned costs and
$44,309,475 in funds put to better use.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service follow-up tracking system until the OIG provides written confirmation that
they can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Susan Brownell
    Anthony M. Pajunas
    Cynthia F. Mallonee
    Katherine S. Banks




                                                  6
Air Networks – Federal Express Transportation Agreement                      NL-AR-09-002
 – Southwest Area

                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In January 2006, the Postal Service formalized a nationwide integrated air strategy and
briefed the Board of Governors. Management explained that passenger airlines were
less costly, but also less reliable than other air transportation contractors such as
FedEx. Under the strategy, the Postal Service intended to reduce reliance on
passenger airlines; expand existing air transportation with FedEx and other air cargo
carriers; and, where possible, shift mail moved by air to less costly ground
transportation. Officials emphasized that the integrated air strategy would increase air
carriers’ on-time performance, create air network redundancy, improve flexibility,
enhance security, and reduce costs by making contracting more competitive and
allowing the Postal Service to eliminate infrastructure.

Passenger Airlines – On June 30, 2006, when the Postal Service’s transportation
contracts with passenger airlines expired, they discontinued most passenger airlines as
domestic air transportation contractors. On September 29, 2006, the Postal Service
announced new air transportation contracts with select passenger airlines. The Vice
President, Network Operations, explained that by relying on passenger airlines with
established records of performance, the new contracts would help achieve on-time
delivery and provide higher levels of service.

        Postal Service officials
       explained that American
            Airlines was a
        passenger airline with
           reliable, on-time
        performance, and was
        awarded a contract to
         continue providing
                service.

       Mail being loaded onto
       an American Airlines jet
         at Dallas Fort Worth
        International Airport,
         November 25, 2008.



The FedEx Contract – On August 2, 2006, the Postal Service announced it had
truncated the original 2001 contract with FedEx and signed a new 7-year agreement.
The new agreement specified an immediate price reduction in all contract categories
and allowed the Postal Service to continue to outsource Terminal Handling Service
(THS) contractors.




                                                  7
Air Networks – Federal Express Transportation Agreement                      NL-AR-09-002
 – Southwest Area




         On July 31, 2006,
        the Postal Service
          signed a new
        7-year agreement
           with FedEx.

         The air containers
           pictured in the
          foreground were
           designed to be
        loaded onto FedEx
              aircraft.




The Postal Service transportation network currently uses THS contractors to prepare
and load mail in containers onto FedEx planes. The contractors for Southwest Area
THS operations are Matheson Flight Extenders, Inc. (Matheson) and Integrated Airline
Services, Inc. (IAS).

Under the FedEx contract, the Postal Service periodically negotiates with FedEx for mail
transport capacity. As a contract minimum, the Postal Service must use 95 percent of
the contracted capacity or pay for it regardless.

OBJECTIVES, SCOPE, AND METHODOLOGY

This is the fourth in a series of reports on the FedEx transportation agreement. The
objectives of our audit were to determine whether selected transportation operations in
the Southwest Area were effective and economical.

To conduct our work, we visited various facilities and operations in the Southwest Area,
including airport mail centers (AMCs), THS operations, and mail processing facilities in
Albuquerque, NM; Austin, TX; Baton Rouge, LA; Dallas, TX; Houston, TX; Oklahoma
City, OK; and San Antonio, TX.

We interviewed officials from Postal Service Network Operations and the Southwest
Area. We also interviewed Postal Service contractors, including officials from FedEx,
IAS, and Matheson. We evaluated the types of mail transported, considered on-time
service standards, analyzed alternate solutions for making the best use of surface and
air networks, and observed and photographed operations.




                                                  8
Air Networks – Federal Express Transportation Agreement                      NL-AR-09-002
 – Southwest Area




 The Postal Service outsources THS
 operations to contractors, who build
and tender air containers to FedEx for
           transportation.

  FedEx container loaded by THS
operations for tender to FedEx, Baton
             Rouge, LA.




We also examined relevant documents, including:

   •   The Postal Service Integrated Air Strategy, dated January 9, 2006.

   •   The FedEx contract, dated January 10, 2001, and the extended FedEx contract,
       dated July 31, 2006.

   •   Postal Service contracts with various passenger airlines.

   •   Contracts with THS providers.

   •   Postal Service policies that govern network routing and on-time standards.

We examined computer-generated data from October 2005 through December 2007 to
analyze mail volume, operational efficiency, and costs. We did not audit or
comprehensively validate the data; however, the large amounts of data and its
inaccessibility significantly constrained our work. Extracting more current data during
the audit would have delayed our work.

To address these data limitations, we applied alternate audit procedures. We discussed
the data with Postal Service officials, managers, supervisors, employees, and
contractors; conducted source document examinations; and observed and conducted
physical inspections. We also discussed our initial findings and recommendations with
senior Postal Service officials, considered their perspective, and included their
comments where appropriate.

We conducted this performance audit from April 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our



                                                  9
Air Networks – Federal Express Transportation Agreement                            NL-AR-09-002
 – Southwest Area

audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on November 25, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

                                             Report         Final Report        Monetary
             Report Title                   Number              Date             Impact
Air Networks – Issues In the Pacific      NL-AR-08-001    November 23, 2007    $80.4 million
Area Associated with a Major Postal
Service Customer
Air Networks – Federal Express            NL-AR-08-002    February 19, 2008    $62.8 million
Transportation Agreement – Pacific
Area
Air Networks – Federal Express            NL-AR-08-008    September 29, 2008   $141.3 million
Transportation Agreement – Western
Area


The reports listed above identified the same or similar issues identified in this report.
We identified FedEx operational efficiency opportunities in the Pacific Area and the
Western Area related to surface mail flown on FedEx, First-Class Mail flown on FedEx,
FedEx container capacity, and bypass container use. Management agreed with our
findings and recommendations in the Pacific Area, but had not validated all monetary
impact at the time of report issuance. In the Western Area, management generally
agreed with our findings and recommendations; however, management did not agree
with the total monetary impact savings.




                                                  10
Air Networks – Federal Express Transportation Agreement                                          NL-AR-09-002
 – Southwest Area

                               APPENDIX B: DETAILED ANALYSIS

Transporting Surface Mail on Federal Express Day Turn

We concluded that using ground transportation was more advantageous for the Postal
Service than using FedEx in some cases. Data from the Postal Service’s fiscal years
(FY) 2006 and 2007 cost and revenue analyses and the TRACS identified large
volumes of surface mail4 transported using the FedEx Daytime Network (Day Turn) from
origins in the Southwest Area to destinations across the country. Postal Service policy
requires transportation managers to balance service and cost. Because surface mail is
not as time-sensitive as Express®, Priority, or First-Class Mail, Southwest Area
transportation managers could have met the Postal Service’s on-time standards by
using highway or rail transportation. By transporting surface mail on FedEx the Postal
Service spent about $8.2 million more than necessary, as shown in Table 1.

                              Table 1. Excess Costs of Transporting Surface Mail
                                on FedEx Day Turn during FYs 2006 and 2007

                     Fiscal                      Standard        Package       Total Cost
                      Year       Periodicals       Mail          Services      in Millions

                      2006          $685,631     $1,140,268      $2,068,732     $3,894,630

                      2007          1,099,879      1,666,611      1,568,509      4,335,000

                      Total        $1,785,510    $2,806,879      $3,637,241     $8,229,630

                 Note: We extracted information from Postal Service cost and revenue analysis data. All
                 numbers are rounded. For more details, see Appendix D.

The Southwest Area transported surface mail on FedEx and the Postal Service incurred
excess costs, in part, because employees at Southwest Area processing plants did not
properly segregate surface mail classes (Periodicals, Standard Mail, and Package
Services) from First-Class and Priority Mail during distribution operations. Specifically,
during our site visits to processing plants5 we observed plant employees placing surface
mail into First-Class and Priority Mail containers or sacks for transport by FedEx using
the Day Turn network. For example, at the xxxxxxxx xxxyxxxx xxxxx xxxxxxx
Processing and Distribution Centers (P&DC), we observed that during processing,
Periodicals and Standard Mail were mixed with First-Class Mail in originating distribution
operations. See Appendix D for more details on the sites we visited.




4
  Surface mail includes magazines, advertising, and merchandise shipped by major mailers such as publishers,
catalog companies, or online retail companies.
5
  Albuquerque, NM; Austin, TX; Baton Rouge, LA; Dallas, TX; Houston, TX; Oklahoma City, OK; and San Antonio,
TX.




                                                      11
Air Networks – Federal Express Transportation Agreement                                        NL-AR-09-002
 – Southwest Area




                                        Redacted




           Periodicals in flat tubs and Priority Mail sacks destined for transportation on FedEx,
                               Oklahoma City P&DC and North Houston P&DC.



The Postal Service could lower overall FedEx lift requirements and save about $34.7
million over 10 years. See Appendix C for a breakdown of unnecessary costs and
potential cost avoidance.

FedEx Versus Passenger Airlines

It was more advantageous for the Postal Service to use domestic carriers than FedEx in
some cases. From January 1 through December 31, 2007, the Postal Service incurred
almost $218,000 in unnecessary costs to move xxxxxxx cubic feet of First-Class Mail on
FedEx from origins in the Southwest Area. The Postal Service incurred the excess
costs because local officials did not follow mail assignment priorities by assigning mail
to less costly available commercial air transport. See Table 2.

                       Table 2. Available Unused Capacity on Passenger Airlines
                 Analysis of the Southwest Area – January 1 through December 31, 2007

                     Southwest Area           Unused Passenger Airline          Excess
                     Point of Origin           Capacity in Cubic Feet            Costs
                 Albuquerque                               Xxxxx                  $5,698
                 Austin                                   Xxxxxx                  12,133
                 Dallas                                  xxxxxxx                  81,521
                 Houston                                 Xxxxxxx                  89,025
                 San Antonio                              Xxxxxx                  28,687
                 All Other                                 Xxxxx                     921
                  Total                                  xxxxxxx                $217,985


Postal Service transportation managers told us that transportation on FedEx was the
most costly transportation mode, passenger airlines were less costly, and surface was
the least costly.




                                                    12
Air Networks – Federal Express Transportation Agreement                           NL-AR-09-002
 – Southwest Area

Management generally assigns First-Class Mail according to these priorities:

   •   The Postal Service uses surface transportation when distances allow that mode
       to meet on-time standards.

   •   The Postal Service uses passenger airlines because these carriers provide the
       least costly air transportation.

   •   The Postal Service uses FedEx when air transportation is required and capacity
       on passenger airlines or other commercial carriers is not available.

For First-Class Mail that requires air transportation, Postal Service processing plants
assign the mail to air carriers before dispatching it to airports. During seven site visits to
THS operations at various airports, we observed First-Class Mail arriving from
processing plants was being routinely assigned to FedEx when FedEx contract
minimums had already been met and there was availability on less costly passenger
airlines.

We concluded that Southwest Area transportation managers have an opportunity to
meet on-time standards and save about $4.2 million over 10 years if they maximize the
capacity of selected passenger airlines. See Appendix C for a breakdown of
unnecessary costs and potential cost avoidance.

Mixed Versus Bypass Air Containers

Finally, in some cases, it was more advantageous for the Postal Service to sort mail
than FedEx. During the period January 1 through December 31, 2007, the Southwest
Area unnecessarily spent about $548,000 to have FedEx sort mail at the FedEx
Memphis hub. The Postal Service tenders mail to FedEx in both bypass and mixed
containers.

   •   Bypass containers hold mail bound for the same destination airport.
       Consequently, when they arrive at the FedEx Memphis hub, the containers can
       bypass the FedEx sort operation and be transferred directly to planes departing
       the hub for final destination airports. Bypass containers move through the FedEx
       Memphis hub at no additional cost to the Postal Service.

   •   Mixed containers hold mail bound for various destination airports. Consequently,
       when they arrive at the FedEx Memphis hub, they must open the containers,
       remove the mail, and sort it before loading it onto departing planes. The Postal
       Service is required to pay FedEx for sorting mail at the hub.

The Postal Service’s contract with FedEx establishes mail sorting fees charged to the
Postal Service. During the analysis period, FedEx charged between xx xxx xx xxxxx for
sorting each sack, tub, tray, or similar mail handling unit. Sorting mail for one of the




                                                  13
Air Networks – Federal Express Transportation Agreement                                  NL-AR-09-002
 – Southwest Area

largest FedEx air containers could cost more than $300 because those containers hold
up to xxx First-Class Mail letter trays.




   This picture shows a fully loaded FedEx
  container (AYY) loaded by THS officials in
  Houston, TX. The container is about to be
   transported to the FedEx Memphis hub
                sort operation.




IAS, the Postal Service contractor for most THS operations in the Southwest Area,
loads FedEx air containers for transport on FedEx aircraft. For many valid operational
reasons, IAS cannot always load mail into bypass containers and, instead, must load it
in mixed containers. To balance service and cost, the Postal Service establishes goals
for bypass versus mixed containers. Our analysis of the Southwest Area for the period
January 1 through December 31, 2007, showed that the Southwest Area achieved an
average of 57 percent of planned bypass goals. See Table 3.

           Table 3. Southwest Area – Planned and Actual Bypass Mail Sorted by FedEx
                             January 1 through December 31, 2007

                                                                            Planned Bypass
                                  Planned Bypass          Actual Bypass   Cubic Feet Achieved
     Point of Origin                 Cubic Feet            Cubic Feet          (Percent)

     Albuquerque, NM                    466,501               142,851            30.62
     Austin, TX                         472,189               387,513            82.07
     Baton Rouge, LA                    264,451                50,983            19.28
     Dallas, TX                       3,711,202             2,234,540            60.21
     El Paso, TX                         40,548                19,584            48.30
     Houston, TX                      1,336,705               757,358            56.66
     Lubbock, TX                         67,450                10,069            14.93
     Oklahoma City, OK                   91,233                64,185            70.35
     San Antonio, TX                    859,959               550,804            64.05
     Tulsa, OK                          105,273                43,284            41.12
      Total                           7,415,511             4,261,171            57.46


Because Southwest Area operations did not meet planned container bypass cubic feet,
the Postal Service spent more than necessary to sort mail using FedEx. Our analysis of
FedEx scan data for the period identified more than xxxxxxx mail bags, trays, tubs, or
other mail handling units that FedEx unnecessarily sorted. As a result, the Postal
Service paid FedEx about $548,000 more than needed.




                                                   14
Air Networks – Federal Express Transportation Agreement                          NL-AR-09-002
 – Southwest Area



  FedEx freight and U.S. mail conveyed through
     the FedEx Memphis hub sort operation,
                  April 20, 2005.

   FedEx charges the Postal Service for every
   sack, tub, tray, or other mail handling unit.

   Note that U.S. mail packages, Priority Mail
    sacks, and an overturned tub are being
     conveyed through the sort operation
        commingled with FedEx freight.




This condition occurred because Postal Service mail processing plants did not:

   •    Adequately separate and identify bypass mail before sending it to airports.

   •    Dispatch mail to airports in time for THS contractors to place the mail in bypass
        containers. Officials at some THS sites we visited stated that mail routinely
        arrived late from local facilities and, as a result, containers were converted from
        bypass to mixed so they could be tendered on-time to FedEx.

If Southwest Area processing plants properly separate bypass mail and dispatch mail to
airports on time, the Postal Service could avoid about $5.4 million in unnecessary
sorting costs over the next 10 years. See Appendix C for details of unnecessary costs
and potential cost avoidance.




                                                   15
Air Networks – Federal Express Transportation Agreement                                                NL-AR-09-002
 – Southwest Area


           APPENDIX C: SUMMARY OF UNNECESSARY COSTS AND
    POTENTIAL COST AVOIDANCE IN SOUTHWEST AREA FEDEX OPERATIONS

                Unnecessary Costs6 – October 2005 through December 2007

                                        Cost Category                                             Amount

      Cost to transport surface mail on FedEx Day Turn (FYs 2006 & 2007).                          $8,229,630

      Excess cost of First-Class Mail that could have been transported on
      less costly passenger airlines (calendar year 2007).                                             217,985

      Avoidable sorting costs at the FedEx Memphis hub (calendar year                                  547,906
      2007).

        Total                                                                                     $ 8,995,521

                                        Potential Cost Avoidance7

                                Method of Cost Avoidance                                Amount

                Moving surface mail on less costly surface
                transportation.                                                         $34,709,829

                Using commercial passenger airlines to move
                First-Class Mail when capacity exists and FedEx
                contract minimums have been met.                                           4,245,237

                Avoiding FedEx sorting charges by maximizing plans
                to avoid charges and pursuing additional
                opportunities to further reduce charges.                                   5,354,409

                 Total                                                                 $ 44,309,475




6
 Unnecessary costs are unrecoverable questioned costs.
7
 Potential cost avoidance is funds put to better use. The standard OIG practice for calculations of this type employs
a 10-year cash flow methodology, discounted to present value by applying factors published by Postal Service
Headquarters Finance. Fluctuations in mail volume over time may impact the 10-year projection results.




                                                         16
Air Networks – Federal Express Transportation Agreement   NL-AR-09-002
 – Southwest Area




                                                  17
Air Networks – Federal Express Transportation Agreement    NL-AR-09-002
 – Southwest Area


                       APPENDIX E: MANAGEMENT’S COMMENTS




                                                  18
Air Networks – Federal Express Transportation Agreement   NL-AR-09-002
 – Southwest Area




                                                  19
Air Networks – Federal Express Transportation Agreement   NL-AR-09-002
 – Southwest Area




                                                  20
